              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report


Unauthorized Handguns on National
Nuclear Security Administration Aircraft




DOE/IG-0654                                                 July 2004
UNAUTHORIZED HANDGUNS ON NATIONAL NUCLEAR
SECURITY ADMINISTRATION AIRCRAFT



TABLE OF
CONTENTS

             OVERVIEW

             Introduction and Objectives     1

             Observations and Conclusions    2


             DETAILS OF FINDINGS

             Handguns in Aviation Facility   3

             Inadequate Controls             4


             RECOMMENDATIONS                 6


             MANAGEMENT COMMENTS             6


             INSPECTOR COMMENTS              6


             APPENDICES

             A. Scope and Methodology        7

             B. Management Comments          8
Overview

INTRODUCTION AND   Within the Department of Energy (DOE), the National Nuclear
OBJECTIVES         Security Administration’s (NNSA’s) Office of Secure
                   Transportation (OST) is responsible for providing the safe and
                   secure transport of nuclear weapons, special nuclear materials, and
                   weapons components between DOE production facilities and
                   Department of Defense facilities via surface and air modes of
                   transportation. NNSA has a fleet of aircraft that support the OST
                   mission, and they are housed on Kirtland Air Force Base,
                   Albuquerque, New Mexico. Ross Aviation, Inc., maintains and
                   operates the aircraft under contract with NNSA.

                   In July 2002, the Office of the Inspector General (OIG) initiated an
                   inspection of security policies and procedures for aircraft operated
                   by NNSA, with specific focus on aircraft operated by the OST
                   Aviation Operations Branch in Albuquerque, New Mexico. That
                   inspection was closed after we learned that NNSA and the DOE
                   Office of Aviation Management were in the process of developing
                   and implementing new aviation security policies and procedures, to
                   include passenger and luggage screening and restrictions on
                   firearms.

                   On November 20, 2003, the OIG received several allegations from an
                   NNSA official related to the transport of handguns by NNSA affiliated
                   personnel between Albuquerque and Las Vegas, Nevada, where a Joint
                   Training Exercise involving OST was to be held. One of the
                   allegations was that on October 14, 2003, two individuals employed by
                   Wackenhut Services, Inc., an NNSA contractor providing support
                   personnel to handle logistical aspects of the exercise, improperly
                   transported handguns on board an NNSA DC-9 aircraft ferrying
                   Federal and contractor personnel from Albuquerque to Las Vegas for
                   the training exercise.

                   Interviews confirmed that the two contractor employees brought
                   privately owned and Government handguns on board the NNSA
                   Albuquerque to Las Vegas flight. Therefore, the objectives of this
                   inspection were to determine if: (1) the two individuals violated DOE
                   and/or Federal Aviation Administration (FAA) policy when they
                   transported the handguns onto Federal property and an NNSA aircraft
                   on October 14, 2003, and (2) the OST Aviation Operations Branch had
                   implemented adequate internal controls to prevent the transport of
                   prohibited articles, such as handguns, on its aircraft. The other related
                   allegations the OIG received on November 20, 2003, will be addressed
                   in a separate report.




Page 1                                    Unauthorized Handguns on National
                                          Nuclear Security Administration Aircraft
OBSERVATIONS      We concluded that DOE and FAA policies were violated when the
AND CONCLUSIONS   two NNSA contractor employees brought handguns onto Federal
                  property and on board an NNSA aircraft without obtaining proper
                  authorization. We also determined that, contrary to representations
                  made to us by officials in 2002 regarding the intended immediate
                  development of new aircraft security policies and procedures,
                  NNSA has not developed and implemented an effective aircraft
                  security program to ensure that prohibited articles are not brought
                  on board NNSA aircraft. Specifically, we found that:

                  •   The two contractor employees transported the handguns,
                      without authorization, through the NNSA aviation facility,
                      which is designated as a Controlled Access Area where prior
                      authorization is required for the admittance of prohibited
                      articles, and then onto the NNSA aircraft, in violation of DOE
                      and FAA policies.

                  •   Although the OST Aviation Operations Branch acquired a
                      building for the purpose of establishing a controlled boarding
                      area and procured screening equipment, associated policy was
                      not developed and actual screening of passengers and baggage
                      was not implemented, as required by DOE and the FAA.

                  Following the terrorist events of September 11, 2001,
                  extraordinary measures were taken by the Government and the
                  aviation community to prevent the introduction of prohibited
                  articles on board passenger aircraft and the use of aircraft for
                  malicious purposes. The OST Aviation Operations Branch’s
                  failure to develop and implement policies and procedures to
                  prevent prohibited articles from being taken on board NNSA
                  aircraft is inconsistent with standing nationwide security measures
                  and direction. In addition, because of the lack of adequate policies
                  and procedures, there is no assurance that other personnel have not
                  taken prohibited articles on board NNSA aircraft without
                  authorization.




Page 2                                            Observations and Conclusions
Details of Findings

HANDGUNS               We found that the two contractor employees transported personal
IN AVIATION FACILITY   and Government handguns through the NNSA aviation facility and
                       then onto the NNSA aircraft without authorization. According to the
                       NNSA Aviation Operations Branch Site Security Plan, the aviation
                       facility is designated as a Property Protection Area. As such, access
                       is controlled by security personnel and the access point is posted as a
                       “Controlled Access Area” with an accompanying list of prohibited
                       articles that require prior authorization for admittance, which
                       includes firearms.




                             SIGN AT THE ENTRANCE TO THE NNSA AVIATION FACILITY


                       We determined that the posted policy is predicated on 10 Code of
                       Federal Regulations (CFR) 860, TRESPASSING ON
                       DEPARTMENT OF ENERGY PROPERTY. According to 10
                       CFR 860.4, “Unauthorized carrying, transporting, or otherwise
                       introducing or causing to be introduced any dangerous weapon . . .
                       into or upon any facility, installation or real property subject to this
                       part, is prohibited.” Willful violations of the posted policy, upon




Page 3                                                                 Details of Findings
                                  conviction, shall result in a Class A misdemeanor punishable by a
                                  fine not to exceed $100,000 or imprisonment for not more than one
                                  year, or both.1

                                  Contrary to the posted policy, the two contractor employees
                                  entered the Controlled Access Area with handguns without having
                                  obtained prior authorization. The employees then carried the
                                  handguns aboard the aircraft without approval. One employee
                                  carried his privately owned handgun and two Government
                                  handguns in his briefcase. The other employee carried his
                                  privately owned handgun in his luggage. Both employees were
                                  carrying ammunition for their weapons. Neither the individuals
                                  nor their baggage were subjected to screening for prohibited
                                  articles. Further, both of the contractor employees told us that they
                                  had taken their privately owned handguns on board NNSA aircraft
                                  many times before the October 14, 2003, flight.

INADEQUATE                        Although the OST Aviation Operations Branch acquired a building
CONTROLS                          in order to establish a controlled boarding area and procured
                                  screening equipment to support this effort, associated policy was
                                  not developed and actual screening of passengers and baggage was
                                  not implemented, as required by DOE and the FAA. The absence
                                  of these controls apparently allowed the unauthorized handguns to
                                  be taken on board the NNSA aircraft.

                                  DOE Order 440.2B, “Aviation Management and Safety,” requires
                                  aviation program managers to establish procedures for security and
                                  to develop an aviation implementation plan. DOE Guide
                                  440.2B-2, “Aviation Management, Operations, Maintenance
                                  Security, and Safety,” which further defines DOE’s expectations,
                                  states that DOE Federal aircraft operators “must” use measures to
                                  prevent or deter the carriage of any unauthorized weapon on each
                                  individual’s person or accessible property before boarding an
                                  aircraft or entering an aircraft boarding area. The guide also states
                                  that DOE Federal aircraft operators “must” inspect individuals and
                                  accessible property for unauthorized weapons.

                                  OST procured a building and screening equipment in 2002 in the
                                  aftermath of the events of September 11, 2001; however,
                                  procedures for screening passengers were never developed and
                                  incorporated into the aviation implementation plan or Site Security
                                  Plan as required by DOE policy. An NNSA official told the OIG


1
 The OIG coordinated this matter with the Office of the U.S. Attorney. We were advised that criminal prosecution
would not be pursued.



Page 4                                                                                 Details of Findings
         that DOE Guide 440.2B-2 is merely a recommendation and that
         OST is not required to comply with recommendations. He also
         said that OST does not want the task of screening passengers and
         does not have staff to perform this function. Additionally, he
         stated that the flight in question was a “public” flight, so OST was
         not required to screen the passengers.

         According to DOE Order 440.2B, a “public” flight is a flight
         carrying personnel essential to the performance of a Government
         function, and in general, FAA has no legal jurisdiction. This is in
         contrast to a “civil” flight, which is a flight carrying personnel not
         essential to the performance of a Government function, wherein
         compliance with FAA regulations is required.

         We reviewed the flight documentation and determined that the
         October 14, 2003, Albuquerque to Las Vegas flight was released
         from Albuquerque as a “civil” flight. Therefore, in addition to being
         subject to DOE policies and procedures, the flight was subject to
         FAA regulations, which are found at 49 CFR Chapter XII,
         TRANSPORTATION SECURITY ADMINISTRATION,
         DEPARTMENT OF HOMELAND SECURITY. In the case of
         “civil” flights, the FAA requires that aircraft operators must use
         measures to prevent and deter the carriage of any weapon on board.

         With respect to the NNSA official’s comment regarding the
         applicability of DOE Guide 440.2B-2, we determined that the
         guide identifies acceptable methods of implementing requirements
         of the order and identifies relevant principles and practices by
         referencing Government and non-Government standards.
         Although there is latitude on how the program is specifically
         implemented by management, the policies in the order and the
         intent of the guide must be met. Regardless, the notion that
         unauthorized weapons are being transported on board Government
         aircraft is alarming.




Page 5                                                  Details of Findings
RECOMMENDATIONS   We recommend that the Director, OST:

                  1. Develop and implement policies and procedures for the
                     screening of individuals and baggage being transported on
                     NNSA aircraft;

                  2. Incorporate these policies and procedures into the aviation
                     implementation plan and Site Security Plan for Albuquerque,
                     as appropriate;

                  3. Ensure that all Wackenhut, other contractor, and Federal
                     employees comply with DOE policy on the introduction of
                     prohibited articles in Controlled Access Areas and on board
                     NNSA aircraft; and

                  4. Ensure that Wackenhut takes appropriate action with regard to
                     the two Wackenhut employees who violated DOE and FAA
                     policy when they transported unauthorized handguns into a
                     Controlled Access Area and onto an NNSA aircraft.

MANAGEMENT        NNSA generally agreed with the report and corresponding
COMMENTS          recommendations. NNSA stated that it is in the process of
                  implementing passenger screening procedures and that the
                  individuals referred to in the report have been disciplined.
                  Management’s comments are provided in their entirety at
                  Appendix B to this report

INSPECTOR         We found management’s comments to be responsive to our
COMMENTS          findings and recommendations.




Page 6                                                    Recommendations
                                         Management and Inspector Comments
Appendix A

SCOPE AND            We performed the fieldwork for this inspection between
METHODOLOGY          December 2003 and February 2004. We reviewed
                     pertinent DOE orders, guides, and manuals pertaining to
                     safety of flight and aviation programs to determine what
                     criteria applied to flight operations, passenger screening,
                     transport of weapons aboard aircraft, and procedures for
                     gaining approval to transport privately owned weapons on
                     board DOE owned or operated aircraft.

                     We interviewed the individuals alleged to have transported
                     privately owned handguns on board the NNSA aircraft,
                     NNSA Aviation Operations Branch officials, and other
                     DOE and contractor officials regarding the transport of
                     weapons on NNSA aircraft. We also reviewed the
                     following documentation:

                     •    DOE Manual 473.1-1, “Physical Protection Program
                          Manual.”
                     •    DOE Order 473.1, “Physical Protection Program.”
                     •    10 CFR Chapter III, Part 860, Department of Energy.
                     •    49 CFR Chapter XII, Part 1544, Section 1544.201,
                          Acceptance and Screening of Individuals and
                          Accessible Baggage.
                     •    DOE Order 440.2B, “Aviation Management and
                          Safety.”
                     •    DOE Guide 440.2B-2, “Aviation Management,
                          Operations, Maintenance, Security, and Safety.”
                     •    FAA AC 00-1.1, Government Aircraft Operations.
                     •    FAA Regulation Part 135, Operating Requirements:
                          Commuter and On-demand Operations and Rules
                          Governing Persons On Board Such Aircraft.
                     •    FAA Regulation Part 121, Operating Requirements:
                          Domestic, Flag, and Supplemental Operations.
                     •    NNSA/OST Joint Training Exercise Operational,
                          Execution, and Safety Plans.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 7                                               Scope and Methodology
Appendix B




Page 8       Management Comments
                                                                    IG Report No. DOE/IG-0654

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
